                                  -4ATIONAL SCIENCE FOUNDATIOh
                                      ARLINGTON, VA 22230




     Office of
 Inspector General




                                                 --
 MEMORANDUM

           DATE :
           FROM :
--     .   .          _
               VIA:

     SUBJECT:

                TO:       Case No. I94030010


On February 28, 1994, the National Science Foundation (NSF) Office
         tor General (OIG) .received a tel




                          s the Principal Investigator on the
                                             His wlfe Dr.
                                as the Interim Pro ram Man
                                                         -
                               1993.                    was hired as
Program Manager beginning Septemb r 1993.            s
                                                     a-
subsequently fired by Dr. f- --

A          follow                                                  was conducted
                                                                   d been friction
                                                                   beginning. Mr.
                                                                 ad given him bad
stated that all of the workshops had occurred. HeMr.    di
however, that                 as paid a stipend of $5,000 but never
attended any                                               tated he
was unaware of any other misuse                             to make
sure that NSF was aware that Dr.                     was paying his
wife with grant funds.
                       was interviewed telephonically.                  He stated
that his                as Interim Program Mana9.x
through July, 1993 and had continued working on the
                                             an unpaid capacity. Dr.
                            conceptualized the w- -           d later been hired as a whole-
                            language specialist during July 1993.               was paid one
                            ninth of her salary ($4,556), she                   planning the
                                                   ntations on each day-
                                                    documentation for Dr.

                            As we found 'noevidence to substantiate a misuse~+offunds and there
                             are no regulations
                                              _ prohibithg    family members .from working on the
...   -..............   -   -           _        ,. _
                             same grant, further lnves i-gafi   ..'.of iis ..mat-<
                                                                                .e-5-.. ..ilolor-.w.a
                                                                                      .

                                                                                                   r.rante   - ....   ...-
                                                                                                                      "   .




                             at this time.
                            This case is closed.
